                                        OFFICE OF INSPECTOR GENERAL
                                                                MEMORANDUM




DATE:         September 11, 2002

TO:           Chief, Wireline Competition Bureau

FROM:         Inspector General

SUBJECT:      Report on Special Review of the E-rate Program at Enoch Pratt Free
              Library.

The Office of Inspector General (OIG) has completed a Special Review at Enoch Pratt
Free Library, a beneficiary of the Universal Service Fund (USF). A copy of our Special
Review Report, Report No. 02-AUD-02-04-010 entitled “Report on Special Review of
the E-rate Program at Enoch Pratt Free Library” is attached. The objective of this review
was to assess the beneficiary’s compliance with the rules and regulations of the USF
program and to identify areas in which to improve the program.

Based on the results of the review, the auditors have concluded that the Enoch Pratt Free
Library is compliant with the requirements of the program for the funding year reviewed.
We held an exit conference on May 16, 2002 with representatives from Enoch Pratt Free
Library, and requested their comments on the results of the review. They agreed with the
results of the review.

In addition to the report, we have attached a copy of the OIG Customer Survey on Audit
Products/Services. Please complete and return the questionnaire. If you have any
questions, please contact Thomas Cline, Director of Program Audits, at (202) 418-7890.



                                            H. Walker Feaster III

Attachments

cc:    George McDonald, Vice President, Schools and Libraries Division, USAC
       Andrew Fischel, Managing Director
       Jerry Cowden, Performance Evaluation and Records Management
       Michael Walsh, Manager, Computer Systems, Enoch Pratt Free Library
FEDERAL COMMUNICATIONS
      COMMISSION
      OFFICE OF INSPECTOR GENERAL




          Report on Special Review of the E-rate
           Program at Enoch Pratt Free Library

                Report No. 02-AUD-02-04-010
                     September 11, 2002

_______________________________   _______________________________
       H. Walker Feaster III               Thomas D. Bennett
         Inspector General         Assistant Inspector General for Audit


_______________________________   _______________________________
         Mark J. Gerner                    Thomas C. Cline
          Senior Auditor               Director of Program Audits
Special Review of the E-rate Program at Enoch Pratt Free Library.


                                   Table of Contents


                                                                    Page



REVIEW OBJECTIVES AND SCOPE                                           1


RESULTS OF REVIEW                                                     1


BACKGROUND INFORMATION                                                2
Special Review of the E-rate Program at Enoch Pratt Free Library


REVIEW OBJECTIVE AND SCOPE

The OIG has designed a program of audit oversight to provide FCC management with a
reasonable level of assurance that beneficiaries are complying with program rules and
that program controls are adequate to prevent fraud, waste and abuse. This special
review was conducted as part of that oversight program. The objective of this review was
to assess the beneficiary’s compliance with the rules and regulations of the USF program
and to identify areas in which to improve the program. The scope of this special review
was designed to test recipient compliance with program requirements contained in Title
47, Part 54 of the Code of Federal Regulations (47 CFR 54.500 through 47 CFR 54.520)
that include:

•   A process has been established to select the most cost effective service provider
•   Equipment and services are purchased in accordance with applicable procurement
    rules and regulations, and the applicant has paid its portion of the pre-discounted
    costs.
•   Services rendered are consistent with what the beneficiary presented on its
    application for E-rate funds and were installed or provided before the installation
    deadline.
•   The beneficiary has adequate resources, as certified, to use the discounted services for
    which funding has been provided.
•   The beneficiary has an approved technology plan, as certified.

The Enoch Pratt Free Library is a public library system located in Baltimore, MD.
The period of our review was from June 30, 1999 to July 1, 2000, which comprises
Funding Year 2 of the E-rate program. SLD Year 2 commitments amount to $2,678,895,
of which 86% was spent on internal connections, 11% on telecommunication services,
and 3% on internet access.

This special review was conducted in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. As part of the scope of our
review, we obtained an understanding of the specific management controls relevant to the
E-rate program. Because of inherent limitations, a study and evaluation made for the
limited purposes of our review would not necessarily disclose all material weaknesses in
the control structure.

RESULTS OF REVIEW

Our review of the use of E-rate funds at the Enoch Pratt Free Library disclosed that the
beneficiary is compliant with the requirements of the program. Our review disclosed no
material weaknesses in the controls relevant to the E-rate program. However, we have
identified a reportable condition that, while not materially deficient, could adversely
impact the program. We found that Billed Entity Applicant Reimbursements (BEARs)
are not being processed on a timely basis. See the Background Information section of
this report for further details. We held an exit conference on May 16, 2002 with



                                             1
Special Review of the E-rate Program at Enoch Pratt Free Library


representatives from Enoch Pratt Free Library, and requested their comments on the
results of the review. They agreed with the results of the review.

BACKGROUND INFORMATION

In accordance with the Inspector General Act of 1978, as amended, the Office of
Inspector General (OIG) at the Federal Communications Commission (FCC) has
oversight responsibilities for the Universal Service Fund (USF) as a federal program of
the FCC. The USF provides affordable access to specified communications services for
schools, libraries, rural health care providers, low-income consumers and companies
serving high-cost areas. On May 7, 1997, the FCC adopted a Universal Service Order
implementing the Telecommunications Act of 1996. Included in this Order was the
Schools and Libraries Funding Mechanism of the USF (hereinafter known as the E-rate
program) in which all eligible schools and libraries can receive discounts from the USF
on eligible communication services ranging from 20 to 90 percent, depending on
economic need and location. The Universal Service Administrative Company (USAC) is
responsible for administering the Fund under the direction of the FCC’s Wireline
Competition Bureau (WCB). The Schools and Libraries Division (SLD) of USAC
administers the E-rate program.

USF discounts can be applied to three kinds of services and products:

•   Telecommunication services, including basic phone service.
•   Internet access.
•   Internal connections, including wiring and network equipment needed to bring
    information directly to classrooms or library patrons.

The Enoch Pratt Free Library is a public library system located in Baltimore, Maryland.
SLD Year 2 commitments amount to $2,678,894.80 of which 86% was spent on internal
connections, 11% on telecommunications services, and 3% on internet access.
$2,411,773 was disbursed against these commitments.

OTHER OBSERVATIONS:

Billed Entity Applicant Reimbursement (BEAR) reimbursements occurred as much as a
year after initial payments to the vendor.

In the process of reviewing costs associated with this project, the auditor reviewed a
Nortel Networks contract to purchase, install and maintain DS 3 routing switches. These
routers form the backbone of a telephone network for the public libraries.

The Bear form, also known as FCC Form 472, is a tool used by beneficiaries to request
E-rate discounts for services for which the beneficiary has already paid the service
provider. Under this process, the beneficiary pays the service provider in full for services
received. This payment from the beneficiary covers both the universal service fund share
(the discounted portion) and the beneficiary’s share of the costs. The beneficiary then


                                             2
Special Review of the E-rate Program at Enoch Pratt Free Library


invoices USAC for the universal service fund share of the amount it paid for the eligible
services it received. The service provider must also sign the BEAR form indicating that
it knows it must pass along to the beneficiary the payment it will receive from USAC.
After processing the form, USAC send the payment to the service provider, who must
then reimburse the beneficiary for the portion of the invoiced costs that was covered by
the USF so that in the end the beneficiary has only paid for their portion of the costs. The
service provider is required to reimburse the beneficiary no later than ten days following
receipt of payment from USAC.

There were a total of four payments to the vendor for a total payment of $174,478.60.
The payments began on August 10, 1999 and ended with the final payment on November
15, 2001. The reimbursement check in the amount of $156,538.26 was provided to
Enoch Pratt on October 22, 2002. This is 14 months and 12 days after the first payment
to Nortel.

The BEAR form was not filed by the beneficiary until June 6, 2002. The beneficiary
chose to wait until the contract was completed before requesting reimbursement.
Therefore, the delay in BEAR reimbursement was the result of decisions made by the
beneficiary rather than delay on the part of the service provider. Nonetheless, this
lengthy delay in completing the BEAR reimbursement process is technically not in
compliance with program requirements and could reduce the funds available at the local
level to support the E-rate program or similar technology expenditures.




                                             3
